APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the Supreme Court of North Dakota
(July 22, 2020) .................................................... 1a
Dissenting Opinion of Justice Tufte ................ 13a
Memorandum Opinion on Appeal of the District
Court of North Dakota, South Central
Judicial District (June 28, 2019) ..................... 21a
Order on Return of the District Court of North
Dakota, South Central Judicial District
(September 24, 2018)........................................ 35a
Order of the District Court of North Dakota,
South Central Judicial District
(March 20, 2018) ............................................... 40a
REHEARING ORDER
Order of the Supreme Court of North Dakota
Denying Petition for Rehearing
(September 21, 2020)........................................ 47a
Dissenting Opinion of Chief Justice Jensen.... 49a

App.1a
OPINION OF THE
SUPREME COURT OF NORTH DAKOTA
(JULY 22, 2020)
IN THE SUPREME COURT
STATE OF NORTH DAKOTA
________________________
DEBORAH HOLTER,

Petitioner and Appellant,
v.
CITY OF MANDAN, a Political Subdivision
of the State of North Dakota,

Respondent and Appellee.

________________________
2020 ND 202

Appeal from the District Court of Morton County,
South Central Judicial District, No. 20190277,
the Honorable Cynthia M. Feland, Judge.
Before: Lisa Fair MCEVERS, Daniel J. CROTHERS,
Gerald W. VANDEWALLE, Judges.
McEvers, Justice.
[¶1] Deborah Holter appeals a district court judgment dismissing her appeal of the Mandan Board of
City Commissioners’ decision to specially assess her
property for street improvements. We affirm.

App.2a
I
[¶2] In February 2015, a public hearing was held
regarding needed repairs to streets and alleys. In
March 2015, the Board adopted a resolution creating
Street Improvement District No. 199 and a resolution
declaring the cost of the improvements would be
specially assessed against the benefited properties in
the district in amounts proportionate to but not
exceeding the benefits the properties received from
the improvements. The improvement district included
construction on streets between 4th Avenue Northeast
to Mandan Avenue and between Main Street and 3rd
Street Northeast in Mandan. The minutes reflect that
the total cost of the project was estimated to be
$3,653,297 and approximately five percent of the
project would be paid by city sales tax, with the
remainder to be assessed to the benefiting properties.1
[¶3] The actual cost of the improvements was
$3,316,595.73. The City paid $225,000,2 and the
remaining amount of $3,091,595.73 was specially
assessed to the properties especially benefited by the
improvements. In July 2017, the Mandan Special
Assessment Commission published a notice of a
meeting in August 2017 that contained the items of
expense of the improvement, allocation of a portion of
the cost to the City, and the net amount to be
assessed. The notice provided a list of properties
found to be especially benefited by the construction
performed in the project and the amounts to be
assessed. The notice provided:
1 Five percent of the estimate is roughly $182,665.
2 More than 6.75% of the total costs.

App.3a
We the undersigned, constituting the Special
Assessment Commission of the City of
Mandan do hereby certify that the following
is a true and correct list of the particular lots
of land which, in the opinion of the Commission, are especially benefited by the construction performed . . . showing the amount
against each lot or tract, the same is a true
and correct assessment of the property there
in described to the best judgement of the
members of the Commission.
(Emphasis added.)
[¶4] In August 2017, the Special Assessment
Commission approved the proposed assessments
against the especially benefited properties and moved
the decision to the Board for its consideration. The
Board approved the special assessments in October
2017.
[¶5] Holter owns three undeveloped residential
lots in the improvement district. Each lot was assessed
$15,928.40, for a total of $47,785.20. Holter objected
to the assessments against her properties, claiming
they exceeded the value of the benefits they receive. She
also argued the method for determining the assessments was unfair because corner lot owners and
non-corner lot owners were not treated equally.
[¶6] Holter appealed the Board’s decision approving the special assessments to the district court.
The court twice remanded the case to the City for further findings on the value of the benefits to
Holter’s properties. On the second remand, the Special
Assessment Commission met and determined that
under the City’s Special Assessment Policy, Holter’s

App.4a
properties were benefited by the amounts assessed
against them. Additional findings from the November 2018 meeting stated:
Winks [commissioner] moved in conformance
with the City of Mandan’s Special Assessment
Policy and the methods prescribed therein,
were used to decide the benefits and costs to
the Holter properties/parcel number B20-1,
B20-2 and B20-3 in the amount of $15,928.40
for each parcel and that the parcels are
specially benefitted in that amount by reason
of the improvements in Street Improvement
District 199.
[¶7] The court affirmed the City’s special assessments against Holter’s properties. The court concluded
the special assessments to Holter’s properties under the
City’s policy were consistent with the amounts assessed
to other properties and were not arbitrary, capricious,
or unreasonable.
II
[¶8] Holter contends the City failed to determine
the value of the benefit to her properties and her
properties were assessed in an amount exceeding the
benefit to the properties.
[¶9] We exercise a limited review of challenges to
special assessments in part because of the separation of
powers doctrine:
The special assessment commission is in
essence a legislative tribunal created by
legislative authority to “(1) determin[e] the
benefits accruing to the several tracts of land
in an improvement district by reason of the

App.5a
construction of an improvement and (2) assess
[ ] the costs and expenses thereof against each
tract in proportion to the benefit received.”
Accordingly, judicial review is limited to
assuring that local taxing authorities do not
act arbitrarily, capriciously, or unreasonably.
Courts are not to act as a super grievance
board, and we do not try special assessment
cases anew or reweigh the evidence. Rather,
we begin with the presumption that assessments for local improvements are valid, and
the burden is on the party challenging the
validity of the assessments to demonstrate
they are invalid.

Bateman v. City of Grand Forks, 2008 ND 72, ¶ 10,
747 N.W.2d 117 (quoting Serenko v. City of Wilton,
1999 ND 88, ¶ 20, 593 N.W.2d 368).

[¶10] Section 40-23-07, N.D.C.C., governs a special assessment commission’s decision relating to
benefits and assessments:
The commission shall determine the amount
in which each of the lots and parcels of land
will be especially benefited by the construction
of the work for which such special assessment
is to be made, and shall assess against each
of such lots and parcels of land such sum, not
exceeding the benefits, as is necessary to pay
its just proportion of the total cost of such
work, or of the part thereof which is to be paid
by special assessment, including all expenses
incurred in making such assessment and
publishing necessary notices with reference
thereto and the per diem of the commission.

App.6a
[¶11] This Court has stated three requirements
must be satisfied for a special assessment to comply
with N.D.C.C. § 40-23-07:
The special benefit accruing to each lot or
parcel of land from the improvement must be
determined. The special assessment levied
against each lot must be limited to its just
proportion of the total cost of the improvement. The assessment against any lot or
parcel of land must not exceed the benefit
which has been determined to have accrued
thereto.

Bateman, 2008 ND 72, ¶ 11, 747 N.W.2d 117.
[¶12] This Court looks at whether, on its face, the
legislative act was arbitrary, capricious, or legally unreasonable. This Court stated in Ulvedal v. Bd. of Cty.
Comm’rs of Grand Forks Cty., 434 N.W.2d 707, 70809 (N.D. 1989):
Several decades ago, this court addressed
the proper role of courts in reviewing a tax
assessment by a local governing body. Appeal
of Johnson, 173 N.W.2d 475 (N.D. 1970). In
that earlier appeal, also from an assessment
of real estate in Grand Forks, this court
surveyed how courts in other states approached review of assessments of property for
tax purposes. We concluded that “it is not for
the court to substitute its judgment for that
of the lawfully designated taxing
authorities, . . . ” Id. at 484. When “there is
substantial evidence to support the appraisal
made by the assessing authorities and no
evidence of any discrimination,” id. at 484,

App.7a
a decision of county commissioners should be
upheld.
Later, in Shaw v. Burleigh County, 286 N.W.
2d 792 (N.D. 1979), this court carefully
defined the scope of “de novo” review of a
county commissioner’s decision under NDCC
11-11-43. A decision about zoning was under
review. This court recognized that it was
examining the exercise of “a legislative
function and not a judicial one.” Id. at 795.
For separation of powers reasons, we held:
“ . . . that a ‘de novo’ hearing, as applied to
judicial review of decisions of the Board of
County Commissioners under Section 1111-43, N.D.C.C., means a trial to determine
whether or not the Board acted arbitrarily,
capriciously, or unreasonably. Section 1111-43, N.D.C.C., must be treated as merely
providing the procedure by which the proceeding may be brought before the court
to determine whether or not the Board
acted properly.” 286 N.W.2d at 797.
Thus, a reviewing court may not reverse a
local governing body’s action simply because
it finds some of the material considered more
convincing. Only when there is such an
absence of evidence or reason as to amount to
arbitrary, capricious or unreasonable action,
can a reviewing court reverse. Both the district court and this court are limited to this
scope of review. Shaw, supra at 797.
This limited review, carefully explained in
Shaw, had been anticipated in Johnson:

App.8a
“[T]he taxation of property is a legislative
rather than a judicial function, . . . ‘[t]he
court must presume, in the absence of
contrary evidence, that the assessing
officers performed their duty, and the
court will not set aside an assessment
merely because of a difference of opinion
as to value. (Citations omitted)’” 173
N.W.2d at 481-482.
We have continued to employ this restricted
concept in reviewing decisions by local
governing bodies. Thus, in Haman v. City of
Surrey, 418 N.W.2d 605 (N.D. 1988), we
affirmed that a city’s special assessment
commission had not acted arbitrarily,
oppressively or unreasonably in assessing
benefits from water and sewer improvements.

See also Cloverdale Foods Company v. City of
Mandan, 364 N.W.2d 56 (N.D. 1985).
[¶13] As such, a municipality has broad discretion
to determine benefits and apportion assessments and
costs to properties within an improvement district.
Bateman, 2008 ND 72, ¶ 16, 747 N.W.2d 117. There is
no exact formula for quantifying benefits. Id. “[A]n
‘assessment may be apportioned according to frontage,
area, value of, or estimated benefits to, the property
assessed, or according to districts or zones, or on any
other reasonable basis that is fair, just, and equitable.’”
Serenko, 1999 ND 88, ¶ 21, 593 N.W.2d 368 (quoting
Cloverdale Foods Co. v City of Mandan, 364 N.W.2d
56, 61 (N.D. 1985)). “The method used to apportion the
assessment cannot be arbitrary and must have some
relation to the benefits.” Bateman, at ¶ 16.

App.9a
[¶14] Here, the City assessed Holter’s property
under its Special Assessment Policy. See N.D.C.C.
§ 40-22-01.2 (stating a city with a population over
10,000 must have written policies “which will be
applied for cost allocation among properties benefited
by a special assessment project”). The purpose of the
City’s policy is to “provide for and ensure consistent,
uniform, fair and equitable treatment, insofar as is
practical, lawful and possible for all property owners
in regards to the assessment of cost for benefits to
properties for the qualifying improvements as listed
in the [Century Code].” The policy states the special
assessment commission is responsible for determining
the benefits to property within the improvement district.
[¶15] Section 3.2 of the City’s policy, relating to
street improvement districts, provides:
Typical benefit allocations on single-family,
residential properties can be assessed by
determining a unit cost. The allocation is
based on a unit cost, if similar in size, by
applying an equal cost share to each parcel/lot
within the district. A unit cost may be determined by taking the total project costs and
dividing by the total lots within the district.
[¶16] The City assessed properties benefited by
the street improvements on the basis of linear feet.
Holter’s three residential lots each contained 100
linear feet. The City assessed each lot $15,928.40, for
a total of $47,785.20.
[¶17] Holter asserts the City failed to determine
the value of the benefits to her properties. She claims
the assessments exceed the benefits to her properties

App.10a
in violation of N.D.C.C. § 40-23-07. She contends the
assessments were unreasonable because they were
slightly less than the total value of the properties. To
support her argument, Holter provided a letter from a
real estate agent stating the approximate value of her
three lots was $50,000 to $75,000.
[¶18] This Court has, in numerous opinions,
approved the use of formulas such as front footage,
area or value to determine the benefits to assessed
properties. D & P Terminal, Inc., v. City of Fargo,
2012 ND 149, ¶ 14, 819 N.W.2d 491 (citing Hector v.
City of Fargo, 2012 ND 80, ¶ 45, 815 N.W.2d 240;
Bateman, 2008 ND 72, ¶ 16, 747 N.W.2d 117; Serenko,
1999 ND 88, ¶ 21, 593 N.W.2d 368; Cloverdale, 364
N.W.2d at 61; Buehler v. City of Mandan, 239 N.W.2d
522, 523, 526 (N.D. 1976); Fisher v. City of Minot, 188
N.W.2d 745, 746-47 Syll. ¶ 2 (N.D. 1971)).
[¶19] Holter raises arguments similar to those
addressed in Serenko. In Serenko, 1999 ND 88, ¶ 22,
593 N.W.2d 368, property owners in a street improvement district were assessed based on the square footage
of their lots. Some landowners disagreed with the
assessments, claiming the “method did not sufficiently
individualize the determination of benefits to their
properties, and failed to properly consider the undeveloped nature of their property.” Id. In rejecting the
argument, this Court stated:
We have rejected similar arguments in the
past and upheld assessments based upon
square footage of the property. Although the
landowners and Serenkos may disagree with
the special assessment commission’s choice
of method, and with its conclusion their
properties were substantially benefitted by

App.11a
the street improvement project, it is not our
function to reweigh the evidence. The landowners and Serenkos have failed to meet their
burden of demonstrating the commission
acted arbitrarily, capriciously, or unreasonably.

Id. at ¶ 23 (citations omitted).
[¶20] Here, Holter’s properties were assessed
under the City’s Special Assessment Policy. The City
uses the policy to determine benefits and assessments
to properties in an improvement district. The special
assessment commission determined that under the
policy, the improvements benefited Holter’s properties
in the amount assessed to them, $47,785.20.
[¶21] Although the City’s determination of benefits
and assessments is based on a formula similar to
others upheld by this Court, this case does raise some
concerns. Under the City’s policy, the terms “benefit”
and “assessment” appear to be used interchangeably,
which may explain why the special assessment commission determined the amount of the benefit to
Holter’s properties equaled the amounts assessed to
them. However, the Special Assessment Commission
did more than simply take the total cost of the project
and divide it by using the formula. It first deducted
$225,000 from the costs and expenses. In doing so, it
determined the benefits for all properties assessed
was less than the total cost of the work. While the
findings by the Special Assessment Commission on
the amount of the benefit may be somewhat conclusory,
the amount of the benefit was determined to be less
than the total cost and was determined to be a just
proportion of the total cost based on the City’s
formula.

App.12a
[¶22] Despite the City’s difficulty in explaining
the determination of benefits, we nevertheless conclude
the assessments to Holter’s properties satisfy N.D.C.C.
§ 40-23-07. The special assessment commission determined the benefits under the City’s policy, and the
assessments do not exceed the benefits.
[¶23] Under this Court’s limited standard of
review, we conclude the City did not act arbitrarily,
capriciously, or unreasonably in determining the benefits
and assessments to Holter’s properties.
III
[¶24] We have considered Holter’s remaining
arguments and conclude they are either without merit
or not necessary to our decision. The judgment is
affirmed.
[¶25]

Lisa Fair McEvers
Daniel J. Crothers
Gerald W. VandeWalle

App.13a
DISSENTING OPINION OF
JUSTICE TUFTE
Tufte, Justice, dissenting.
[¶26] Because I believe the majority is going
further than our precedent requires, and in doing so
interprets an important procedural protection out of
N.D.C.C. § 40-23-07, I respectfully dissent.
[¶27] In short, the problem is this: the City calculated its determination of benefit to Holter’s property
using the same formula by which it calculated the
costs it assessed to that property. Under the City’s
policy, the benefit determination for a lot is defined as
the unit cost allocation. The City’s reduction of total
assessments by five percent does not convert what is
a cost allocation into a benefit determination. The
City policy thus subverts the express intent of the
statute that costs assessed to a lot be limited to no
more than the benefit. The majority acknowledges the
City’s interchangeable use of assessment and benefit
but appears to announce a rule that affirms the City’s
direct allocation of cost because something less than
100% of the total cost is assessed against the
properties in the district.
[¶28] As the majority explains, we have long
approved formulaic allocation of costs by the assessed
lots’ area or front footage. We have also approved
formulas to determine benefits to a property based on
front footage, area, or value. D&P Terminal v. City of
Fargo, Inc., 2012 ND 149, ¶ 14, 819 N.W.2d 491. Where
we have approved formulas to calculate benefits, they
were applied under N.D.C.C. § 40-23-07 to set “‘caps,’
or maximums” to limit the assessed costs. Id. at ¶ 8

App.14a
(“These caps are generally based upon front footage or
square footage of the assessed property, and the
suggested benefit amount is generally less than the
actual cost of the improvements.”); Hector v. City of
Fargo, 2012 ND 80, ¶ 5, 815 N.W.2d 240 (“The amount
determined under the formula is considered to be the
amount the property benefits from the improvement
without considering the actual cost of the improvement.”
(emphasis added)).
[¶29] Here, by defining the benefit in terms of
the lot’s unit costs, the City has eliminated part of the
statutory protection for property owners. “When an
assessment exceeds the benefits to the property
assessed, the excess is a taking of property without
due process of law.” Bateman v. City of Grand Forks,
2008 ND 72, ¶ 20, 747 N.W.2d 117 (citing Cloverdale
Foods Co. v. City of Mandan, 364 N.W.2d 56, 61 (N.D.
1985)). To avoid becoming a “super grievance board,”
Hector, 2012 ND 80, ¶ 13, 815 N.W.2d 240, this Court
has incrementally reduced its review of special assessments. On the issue of whether assessed costs exceed
benefits, the majority now applies our increasingly
limited standard of review to approve the City’s ipse
dixit that benefit equals cost3 and thereby avoid review
under a statute designed to protect against uncompensated takings. Under the City policy, it is impossible to
arrive at a finding that costs exceed benefits. That
should be a clear warning there is something amiss.

3 The City defines benefit equal to cost, whether or not it assesses
total cost less 5% or total cost less 6.75%. Majority, at ¶¶ 2-3.
Whether the City assesses 100% of total costs or 95% or 93.25%,
the benefit determination is still calculated as a function of cost
and so cannot supply the limitation as intended by the statute.

App.15a
The rule announced by the majority reduces the standard of review, limited though it may be, to something
that is neither a standard nor provides any review.
[¶30] When the City voted to accept a bid and
proceed with the project, it legislatively determined
that the total project cost was justified by the total
benefit of the project. We properly do not review that
legislative decision. That is the only point in this
process where any determination was made that cost
did not exceed benefit. But that determination was
made as to total project cost and total project benefit,
not to the benefit accruing to each lot.
[¶31] This Court has consistently identified three
separate requirements of N.D.C.C. § 40-23-07: (1)
determine the “special benefit” to each lot; (2) assess
costs against each lot “limited to its just proportion
of the total cost”; and (3) ensure “[t]he assessment
against any lot or parcel of land must not exceed the
benefit which has been determined to have accrued
thereto.” Hector, 2012 ND 80, ¶ 42, 815 N.W.2d 240;
Bateman, 2008 ND 72, ¶ 11, 747 N.W.2d 117; Cloverdale Foods, 364 N.W.2d at 61. By merging the determination of benefits with costs, the City satisfies only
requirement 2, that costs are assessed in proportion
to benefits, and only because it ensures they are
identical and so always at a 1:1 ratio.
[¶32] The Majority, at ¶ 21, generously notes the
City policy appears to use the terms “benefit” and
“assessment” interchangeably. This is another indication that the policy does not comply with the statutory
requirement to compare assessed costs with benefits
and ensure the costs do not exceed the benefits.
Because the City policy uses the terms interchangeably,
it is essentially comparing the assessed amount with

App.16a
itself. In every instance, A = A. Costs will never exceed
benefits where benefits by definition equal costs.
[¶33] In deferring to the City’s subversion of the
statute, the majority makes the same error. Reasoning
that by deducting a modest percentage of the total
project cost from the total amount assessed, the City
had decoupled cost and benefit, the majority infers the
City “determined the benefits for all properties
assessed was less than the total cost of the work,” and
“the amount of the benefit was determined to be less
than the total cost.” Majority, at ¶ 21. This statement
cannot be squared with the statutory requirement
that the costs “not exceed[ ] the benefits.”
[¶34] By applying the standard as I suggest we
should, we would not substitute our judgment for
that of the board. Reweighing evidence is properly not
within the scope of judicial review under separation of
powers. Instead, we review only to ensure the local
taxing authority does not act “arbitrarily, capriciously,
or unreasonably, or there is not substantial evidence
supporting the decision.” D&P Terminal, Inc. v. City
of Fargo, 2012 ND 149, ¶ 5, 819 N.W.2d 491. What is
not beyond judicial review is to ensure the City makes
some determination of benefits that is separate from its
allocation of costs so that it might ensure that the allocated costs do not exceed the benefit, as required by
the statute and ultimately by the takings clause. By
approving the use of a single formula to calculate both
benefits and costs, the majority allows the City to
shortcut the statutory process and avoid the requirement to ensure the benefit to each lot does not exceed
the costs.
[¶35] We have never before said an assessment
process may treat costs and benefits interchangeably

App.17a
so long as they are proportional. Consistent with our
prior cases, I would interpret N.D.C.C. § 40-23-07 to
require some reasonable determination of estimated
benefits to each lot, independently from assessment of
costs. “[N]o precise formula for quantifying benefits” is
required—a city may determine benefits by frontage,
area, value, or “any other reasonable basis that is fair,
just, and equitable.” Hector, 2012 ND 80, ¶ 43, 815
N.W.2d 240 (quoting Serenko v. City of Wilton, 1999
ND 88, ¶ 21, 593 N.W.2d 368); Cloverdale Foods Co.,
364 N.W.2d at 61-62 (approving determination of
benefits received from sewer project by “water use”
method) (relying on per lot use of parking ramp to
determine benefits in Patterson v. City of Bismarck,
212 N.W.2d 374 (N.D. 1973)). But because N.D.C.C.
§ 40-2307 requires the benefit to be compared to
allocated cost, the benefit determination may not be
calculated by the same formula that allocates cost. To
do so misapplies the law.
[¶36] Under the City’s policy, if the bids for a
project are higher than expected, the City’s benefit
determination will increase by an identical percent.
New pavement and sidewalks increase the value of
adjacent property, which would constitute a benefit
under N.D.C.C. § 40-23-07. But the benefit is not
necessarily the same as or connected to the cost of
the project. It is one thing to say property along a
street will benefit from new pavement by an amount
proportional to its area or frontage. It is quite another
to say that if the cost of paving doubles, the benefit
also doubles.
[¶37] The problem is best illustrated by two
examples. Suppose the City decides to proceed with a
paving project based on its engineer’s estimate that it

App.18a
will cost $5 million. In this example, if the City were
to make an independent determination, it would find
the project was expected to benefit the affected area
by approximately $6 million. But applying City policy
section 3.2, (reproduced in Majority, at ¶ 15) it
calculates benefits to each lot as a function of unit
costs, and so proceeds with a finding that both costs
and benefits are $5 million and then spreads an
equal cost and benefit proportionally to each lot.
During the project, suppose there is a labor strike,
materials shortage, or other disruption that results in
project costs doubling to a total of $10 million. Under
the City policy, because the costs have doubled, the
benefits have also doubled. A project that it initially
determined by formula would benefit the affected lots
by a total of $5 million it now determines by formula
would benefit those lots by the increased total cost of
$10 million. One can readily see that if the City
followed the statute and the cases we have decided
before today, the City would have had to determine
benefit without regard to cost and would have had to
limit the assessment of costs to its pre-project determination of benefits, which in this hypothetical
would be $6 million.
[¶38] For a second illustrative example, suppose
the existing pavement is five years old and is in usable
condition. The City could bid the same repaving project
at the same cost as in the first example. Because of the
way the City policy determines benefit from cost, it will
again conclude that each lot benefits according to its
proportional fraction of the cost. But in this instance,
the pavement to be replaced is still in reasonable
condition and so the actual benefit to the adjacent
properties is the difference between five-year-old

App.19a
pavement and new pavement, a negligible
improvement no matter how it is determined. These
examples illustrate the dangers inherent in conflating
costs with benefits.
[¶39] Paragraph 21 of the majority opinion also
expands this Court’s deference to political subdivisions
in special assessment cases beyond the arguments
presented by the City. Paragraph 21 asserts “the
Special Assessment Commission did more than simply
take the total cost of the project and divide it by using
the formula. It first deducted $225,000 from the costs
and expenses. In doing so, it determined the benefits
for all properties assessed was less than the total cost
of the work.” The City argued, and the majority affirms,
that the City satisfied the statutory requirement to
determine benefit, because it need not determine
benefit separately from cost. But at no point in this
Court or in the district court did the City ever
articulate this deduction as a rationale supporting its
determination of benefit in the special assessment
process. There is not a single reference to the $225,000
reduction of costs and expenses in the City’s brief to
this Court, and the record does not reflect that particular rationale ever having been asserted as a justification or an explanation by the City to the district
court—not in the first appeal to the district court, and
not after either of the two district court remands to
the City demanding an explanation of the benefits.
This case appears to represent the first instance
where this Court, in the absence of any satisfactory
explanation of how a political subdivision determined
the amount of benefit to each lot resulting from a
special assessment project, engaged in its own search
of the record to invent an explanation on behalf of a

App.20a
political subdivision. While great deference should be
afforded to the legislative function of a political subdivision, this Court should not be satisfied by any
conceivable justification that the Court can imagine, in
the absence of a rational explanation being provided
by the political subdivision.
[¶40] I would conclude the City did not comply
with the requirements of N.D.C.C. § 40-23-07, reverse
the district court, and remand to the City to redetermine the benefits to Holter’s lots without considering
the actual per-lot cost and then assess only those costs
that do not exceed the benefits.
[¶41] I respectfully dissent.
[¶42]

Jerod E. Tufte
Jon J. Jensen
Chief Justice

App.21a
MEMORANDUM OPINION ON APPEAL
OF THE DISTRICT COURT OF NORTH DAKOTA,
SOUTH CENTRAL JUDICIAL DISTRICT
(JUNE 28, 2019)
IN DISTRICT COURT
SOUTH CENTRAL JUDICIAL DISTRICT
STATE OF NORTH DAKOTA
COUNTY OF MORTON
________________________
DEBORAH HOLTER,

Appellant,
v.
CITY OF MANDAN, a Political Subdivision
of the State of North Dakota,

Appellee.

________________________

Case No. 30-2017-CV-01003
Before: Cynthia M. FELAND, District Judge.
[¶1] This matter is before the Court on the Appellant’s, Deborah Holter’s, appeal from the decision of the
Board of City Commissioners of the City of Mandan
(BOCC) regarding the approval of the Special Assessments lists for Street Improvement District No. 199.
Specifically, Holter asserts that the City Commission
and the Special Assessment Commission acted
arbitrarily, capriciously, and unreasonably in
approving the special assessments for District 199.

App.22a
Appellee, the City of Mandan (City), argues the decision of the Commission to approve the special assessments should be affirmed.
FACTS
[¶2] On March 3, 2015, the BOCC held a meeting
and adopted (1) a Resolution Approving Engineer’s
Report and Authorizing Preparation of the Detailed
Plans and Specifications for the Construction of the
Improvement in Street Improvement District No. 199,
(2) Resolution Declaring the Necessity of an Improvement Project In and For Street Improvement District
No. 199 of the City of Mandan to be Paid by the Levy of
Special Assessments on Property Benefitted Thereby,
and (3) the Resolution Creating Street Improvement
District No. 199. Docket No. 8 (Record on Appeal–part
1) at pp. 18-23, and 26.
[¶3] On April 13, 2015, the opportunity for lodging
protests to the improvements ended. Id. at P. 55. On
April 21, 2015, the BOCC approved (1) the Resolution
Determining Insufficiency of Protests for Street
Improvement District No. 199, (2) the Resolution Directing Advertisement for Bids for Street Improvement
District No. 199, and (3) the Resolution Approving
Plans and Specifications for Street Improvement District No. 199. Id. at pp. 41-45, 49-50.
[¶4] On May 14, 2016, two bids were received for
the improvements to District No. 199. Id. at P. 55.
These bids, however, were substantially higher than
the estimate provided by the City’s engineer. Id. At
the BOCC meeting on May 19, 2016, the bids were
rejected and the BOCC authorized the City’s Planning
and Engineering Department to revise the plans and
specifications and rebid the project. Id. at pp. 63-64.

App.23a
[¶5] At the BOCC meeting on June 2, 2015, resolutions approving of revised plans for District No. 199
and authorizing solicitation of the bids for the same
were approved. Id. at pp. 82-86, and 89-90.
[¶6] At the BOCC meeting on June 30, 2015, new
bids for District No. 199 were reviewed, and the BOCC
awarded the contract for District No. 199 to Mariner
Construction. Id. at P. 99. The base bid was for
$2,641,458.69, plus administrative and engineering
costs of $924,510.54, for a total estimated cost of
$3,465,969.23. Id.
[¶7] The improvements for District No. 199 were
completed and, on July 7, 2017, the Mandan Special
Assessment Commission (MSAC) held a meeting to
discuss approval of the proposed special assessments
for District No. 199. Id. at P. 101. The MSAC consisted
of Keith Winks, Carl Jacobsen, and the Petitioner,
Deborah Holter. All three members were present at
the July 7, 2017 meeting. Id. at P. 103.
[¶8] Holter owns three properties on the 1100
block of 3rd Street within the proposed special assessments for District No. 199. None of Holter’s three
properties had sidewalks.
[¶9] During the meeting, Holter contested the
amount of assessments because her three parcels,
located on the north side of the 1100 block of 3rd Street,
were being assessed at a higher rate than the corner
parcels on the south side of the 1100 block of 3rd Street.
The remaining members of the MSAC voted to approve
the special assessments for District No. 199. Id. Later,
a written objection was lodged alleging that 3rd Street
should be considered a “collector street.” Id. at pp.
106-107.

App.24a
[¶10] Notice of Hearing of Objections to Special
Assessments for Street Improvement District No. 199
was given. Id. at pp. 108-116. On August 9, 2017, the
MSAC held a public hearing. Id. at pp. 108-116, and
119. At the public hearing, Holter objected to the
assessment against her three properties. Id. at P. 121.
Holter noted that her three properties were assessed
at a total of approximately $50,000.00 ($15,928.40 per
parcel, for a combined total assessment of $47,785.20)
and asserted that the assessment was unfair. Id. at pp.
108-121. In addition, Holter expressed her concern that
the School District may have been assessed differently
than the rest of the parcels within District No. 199. Id.
At the conclusion of the public hearing, a motion was
made to approve the assessment for District No. 199
and move it to the BOCC for consideration. Id. Holter
abstained from the vote; the remaining members voted
in favor of the motion. Id.
[¶11] On November 13, 2017, Holier filed her
Notice of Appeal, requesting judicial review of the
BOCC’s decision to confirm the special assessments for
street improvements to District 199. See Docket No. 1
(Notice of Appeal from Decision of Local Governing
Body). Briefing was completed by both parties for the
issues on appeal on January 26, 2018.
[¶12] On March 20, 2018, this Court issued an
Order remanding the proceedings for further findings
regarding how the City calculated the benefit to
Holter’s property from the assessments. Docket Number
32 (Order). Specifically, this Court stated:
After review, the record indicates that
Holter’s three properties were assessed at
$15,928.40 per parcel, for a combined total

App.25a
assessment of $47,785.20. The record, however, fails to indicate the amount the
properties will benefit by the improvement.
As a result, this Court is unable to determine
whether the BOCC erred in its determination
because either the record is incomplete or the
BOCC failed to determined ‘the amount in
which each of the lots and parcels of land will
be especially benefited by the construction of
the work for which such special assessment is
to be made.’

Id. at ¶ 15. Because this Court could not determine

how the Commission reached its decision, the matter
was remanded for further necessary findings.
[¶13] On August 29, 2018, the BOCC filed a

Return to the Order of Remand expressing that “the

Special Assessment Committee minutes appear to be
confusing as to what the Court’s remand was intended
to be.” Docket Number 35 (Return to the Order of
Remand). The BOCC asserted that it “believes that
the Special Assessment Committee is making the
assessments for Street Improvement District No. 199
as found in ROA 108, are in fact correct, and that the
Commission did follow the law in ascertaining the
benefits to each property including the Holter Property.” Id. at ¶ 4. No additional findings were provided to
the Court regarding the benefit to Holter’s property. Id.
[¶14] On September 24th, 2018, this Court again
remanded the matter for additional findings describing
the method used to decide the benefits and apportion
costs to individual properties within the assessment
district at issue. Docket Number 39 (Order on Return).
The Court specifically cited to the law detailing that
commissions have broad discretion in choosing the

App.26a
methods to apportion costs in relation to the benefits,
and that there is no precise formula for doing so, but
that the method used cannot be arbitrary and must
have some relation to the benefits. Id. at ¶ 6 (and
cases cited therein).
[¶15] On April 2, 2019, the City filed its Response
to the Court’s Order, detailing that the Special Assess-

ment Commission met on November 6, 2018, after the
Court’s second remand. Docket Number 40 (City of
Mandan’s Response to Court’s Order). Attached to its
Response, the City included the minutes from the
November 6, 2018 meeting, as well as a memorandum
the City’s attorney drafted for the Commission. Docket
Number 41 (Exhibit 1 to City of Mandan’s Response)
and Docket Number 43 (Exhibit 1-A to City of
Mandan’s Response). The City also cited to its Special
Assessment Policy, which was part of the Record on
Appeal. Docket Number 8 (Record on Appeal–part
1) at pp. at 29-36.
[¶16] At the November 6, 2018 meeting, the
Commission determined that Holter’s parcels were
specially benefited in the amount assessed by reason
of the improvements in Street Improvement District
No. 199. Docket Number 41 ( Exhibit 1 to City of
Mandan’s Response). Specifically, the Commission
decided as follows:
Winks [commissioner] moved in conformance
with the City of Mandan’s Special Assessment
Policy and the methods prescribed therein,
were used to decide the benefits and costs to
the Halter properties/parcel numbers B20-1,
B20-2 and B20-3 in the amount of $15,928.40
for each parcel and that the parcels are
specially benefited in that amount by reason

App.27a
of the improvements in Street Improvement
District 199.

Id at P. 1.
[¶17] On April 15, 2019, Holter filed a Reply Brief
asserting that while the Mandan Special Assessment
Committee held a meeting on the Court’s second
remand, they failed to make further findings on the
value to Holter’s parcels and the method used to determine the values. Docket Number 45 (Petitioner’s Reply
to City of Mandan’s Response).
STANDARD OF REVIEW
[¶18] The North Dakota Supreme Court has clearly
laid out the standard of review for appeals from a decision by a board of county commissioners:
In an appeal from a decision by a board of
county commissioners, the “principle of
separation of powers precludes parties from
relitigating the correctness and propriety of
the county commission’s decision and prevents
a reviewing court from sitting as a super
board and redeciding issues that were decided
in the first instance by the county commission.” Hagerott v. Morton Cty. Bd of Comm’rs,
2010 ND 32, ¶ 7, 778 N.W.2d 813. We have
explained that deferential standard of review:
When considering an appeal from the decision of a local governing body under
N.D.C.C. § 28-34-01, our scope of review
is the same as the district court’s and is
very limited. This Court’s function is to
independently determine the propriety of

App.28a
the [Board’s] decision without giving special deference to the district court decision.
The [Board’s] decision must be affirmed
unless the local body acted arbitrarily,
capriciously, or unreasonably, or there is
not substantial evidence supporting the
decision. A decision is not arbitrary, capricious, or unreasonable if the exercise of
discretion is the product of a rational
mental process by which the facts and the
law relied upon are considered together
for the purpose of achieving a reasoned
and reasonable interpretation.

Grand Forks Hous. Auths. v. Grand Forks
Bd. of Cty. Comm’rs, 2010 ND 245, ¶ 6, 793
N.W.2d 168 (quoting Hagerott, at ¶ 7).
Our deferential standard of review ensures
that a court does not substitute its judgment
for that of the local governing body. Hector v.
City of Fargo, 2009 ND 14, ¶ 9, 760 N.W.2d
108. In reviewing factual findings by a county
board, we will not reverse its decision simply
because we may have found other evidence
more convincing; instead, we will reverse the
board’s decision only if there is an absence of
evidence or reason which constitutes arbitrary, capricious, or unreasonable action.

Ulvedal v. Board of Cty. Comm’rs of Grand
Forks Cty., 434 N.W.2d 707, 709 (N.D. 1989).
A county board’s interpretation of a statute,
however, is fully reviewable, and a board’s
failure to correctly interpret and apply
controlling law is arbitrary, capricious, and
unreasonable. Gullickson v. Stark Cty. Bd. of

App.29a

Cty. Comm’rs, 474 N.W.2d 890, 892 (N.D.

1991).

Plains Marketing, LP v. Mountrail County Board of
County Commissioners, 2016 N.D. 100, ¶ 6-7, 879
N.W.2d 75.

[¶19] In a case involving an appeal from a decision of a board of county commissioners, the Court
stated “such a standard of review ensures that the
court does not substitute its judgment for that of the
local governing body which initially made the decision. In an appeal from a county board, the record is
adequate to support the findings and conclusions of
the board if it allows us to discern the rationale for the
decision.” Dahm v. Stark County Board of County
Commissioners, 2013 N.D. 241, ¶ 8, 841 N.W.2d 416.
“It is not the province of this Court to substitute its
judgment for that of the County Board.” Id. at ¶ 20.
LAW AND DECISION
[¶20] On appeal, Holter argues that the City acted
arbitrarily, capriciously, unreasonably and contrary
to law when it assessed properties in an amount exceeding the benefit to the properties. The City asserts the
properties benefited from the construction of sidewalks
and the road, and the benefit to the properties exceeds
or is equal to the amount assessed.
[¶21] Section 40-23-07 of the North Dakota
Century Code governs the determination of special
assessments by commission:
The commission shall determine the amount
in which each of the lots and parcels of land
will be especially benefited by the construction
of the work for which such special assessment

App.30a
is to be made, and shall assess against each
of such lots and parcels of land such sum, not
exceeding the benefits, as is necessary to pay
its just proportion of the total cost of such
work, or of the part thereof which is to be paid
by special assessment, including all expenses
incurred in making such assessment and
publishing necessary notices with reference
thereto and the per diem of the commission.
N.D.C.C. § 40-23-07.
[¶22] In Bateman v. City of Grand Forks, the
North Dakota Supreme Court identified three requirements for a special assessment to comply with Section
40-23-07:
The special benefit accruing to each lot or
parcel of land from the improvement must be
determined. The special assessment levied
against each lot must be limited to its just
proportion of the total cost of the improvement. The assessment against any lot or
parcel of land must not exceed the benefit
which has been determined to have accrued
thereto.

Bateman v. City of Grand Forks, 2008 ND 72, ¶ 11, 747
N.W.2d 117 (quoting Cloverdale Foods Co. v. City of
Mandan, 364 N.W.2d 56, 61 (N.D. 1985)).
[¶23] A special assessment commission’s broad
discretion includes choosing the method used to decide
benefits and apportioning costs to individual properties.
Serenko v. City of Wilton, 1999 ND 88, ¶ 21, 593 N.W.
2d 368. The assessments levied against property must
be limited to a “just proportion,” but “the process of
quantifying benefits accruing to each lot inevitably

App.31a
rests on the judgment and discretion of the special
assessment commission.” Haman v. City of Surrey,
418 N.W.2d 605, 608 (N.D. 1988).
[¶24] “[A]n assessment may be apportioned
according to frontage, area, value of, or estimated
benefits to, the property assessed, or according to
districts or zones, or on any other reasonable basis
that is fair, just, and equitable.” Serenko, 1999 ND 88
at ¶ 21. “‘[I]t is the total work product which was used
in determining the final assessment which is
important, rather than the exact method used in
determining the assessment.’” Cloverdale Food v. City
of Mandan, 364 N.W.2d 56, 61 (N.D. 2008).
[¶25] After the second remand, the City provided
the Court with its meeting minutes; specifically finding
that the City’s Special Assessment policies were used
to decide the benefits and costs to Holter’s properties.
Docket No. 41 (Exhibit 1 to City of Mandan’s Response).
A Memorandum prepared by the City’s attorney was
made part of the meeting minutes and was also provided to the Court. Docket No. 43 (Exhibit 1-A to City
of Mandan’s Response–Memorandum).
[¶26] The City Attorney’s Memorandum cites to
the Mandan Special Assessment Policies; specifically,
Policy numbers 3.3, 3.4, and 3.6. The “Determination
and Distribution of Benefits” section of the Special
Assessment Policies states: “[t]he basic/methods of
assessments are per lot or parcel unit cost, front
footage, lot area or a combination of these methods.”
Docket No. 9 (Record on Appeal—part 2) at P. 33.
[¶27] Policy 3.3 then states:
If the single family residential properties vary
greatly in size or front footage, the units may

App.32a
be increased or a combination of allowable
methods may be used. For calculations purposes, all effective areas and front footages
for all properties are provided by the City
Assessor’s Office.

Docket No. 9 (Record on Appeal—part 2) at P. 34.
[¶28] Policy 3.4 provides:
Multi-family property may be special assessed
at a greater number of units proportionate to
the properties use of the benefits (apartments, duplexes, condominiums, twin homes
and/or townhomes, mobile home parks/
manufactured homes).

Id.
[¶29] Policy 3.6 provides:
Corner lots are assessed at a rate of one-half
the unit cost if only one street abutting the
lot/parcel is constructed or improved. When
the second street is constructed, one-half the
unit cost can be assigned to the lot of parcel
abutting that street thus allowing equality
amongst the surrounding properties.

Id
[¶30] The parties do not dispute that Holter’s
three properties are vacant, and combined they have
300’ of frontage on the newly paved street. Specifically,
each tract has 100’ of frontage on Third Street NE.
While Holter’s property is currently vacant, it could
reasonably be developed in the future. The special
assessments the City attributed to Holter’s lots are

App.33a
summarized in the Record on Appeal. Docket No. 16
(Supplemental Record on Appeal).
[¶31] The summary illustrates the rate for each
type of frontage, including commercial street, residential street, commercial alley, residential alley, and
area impact. Id. The “quantity” listed for Holter’s
property is 100.0 feet of residential street frontage. Id.
At a rate of 159.2840 per foot, the total amount of
assessments for each of Holter’s lots equals $15,928.40.
The City specifically found that they used the above
policies “to decide the benefits and costs to the Holter
properties/parcel numbers B20-1, B20-2 and B20-3 in
the amount of $15,928.40 for each parcel and that the
parcels are specially benefited in that amount by
reason of the improvements in Street Improvement
District 199.” Docket Number 41 (Exhibit 1 to City’s
Response).
[¶32] Therefore, this Court concludes that the
amount assessed to Holter’s property is consistent with
the amounts assessed to other lots in District 199, and
it is clearly based on frontage. With the exception of
corner lots, for which the City has an express policy,
Holter’s lots were assessed in the same manner as other
lots in the same district, and the Special Assessment
Commission specifically found that each of Holter’s
lots were benefited by the improvements in the
amount of $15,928.40 per lot.
[¶33] [T]he process of quantifying the benefits
accruing to each lot inevitably rests on the judgment
and discretion of the special assessment commission.
There simply is no precise formula for quantifying
benefits.” Serenko v. City of Wilton, 1999 ND 88, ¶ 21,
593 N.W.2d 368. Assessments may be apportioned
according to “frontage, area, value of, or estimated

App.34a
benefits to, the property assessed, or according to
districts or zones, or on any other reasonable basis
that is fair, just and equitable.” Id. (quoting 63 C.J.S.
Municipal Corporations § 1423, at 1212; now at 64
C.J.S. Municipal Corporations § 1618, at 356-357
(2011)). This Court also must give great deference to
the decisions of special assessment commissions.
[¶34] In this case, the Special Assessment Commission determined the benefits to each tract in District
199, as found in the minutes and in the summary for
each lot, assessing the costs to each particular tract.
[¶35] This Court concludes the decision of the
Special Assessment Commission, as affirmed by the
City Commission, was not arbitrary, capricious, or
unreasonable. The City reasonably followed its policies
relating to benefits and assessments for street improvement projects. Therefore, the confirmation of special
assessments for District 199, including Holter’s lots,
must be affirmed.
CONCLUSION
[¶36] For the foregoing reasons, the confirmation
of special assessments in this matter is hereby
AFFIRMED.
IT IS SO ORDERED.
Dated this 28th day of June, 2019.
By the Court
/s/ Cynthia Feland
District Judge
South Central Judicial District

App.35a
ORDER ON RETURN OF
THE DISTRICT COURT OF NORTH DAKOTA,
SOUTH CENTRAL JUDICIAL DISTRICT
(SEPTEMBER 24, 2018)
IN DISTRICT COURT
SOUTH CENTRAL JUDICIAL DISTRICT
STATE OF NORTH DAKOTA
COUNTY OF MORTON
________________________
DEBORAH HOLTER,

Petitioner/Appellant,
v.
CITY OF MANDAN, a Political Subdivision
of the State of North Dakota,

Respondent/Appellee.

________________________

Case No. 30-2017-CV-01003
Before: Cynthia M. FELAND, District Judge.
[¶1] On March 20, 2018, this Court issued an
Order remanding the proceedings for further findings
regarding the benefit to Holter’s properties. On August
29, 2018, Board of City Commissioners of the City of
Mandan (City) filed a Return to the Order of Remand
expressing that “the Special Assessment Committee
minutes appear to be confusing as to what the
Court’s remand was intended to be.” Docket No. 35
( Return to the Order of Remand) at ¶ 3. The City

App.36a
asserts that it “believes that the Special Assessment
Committee is making the assessments for Street
Improvement District No. 199 as found in the ROA
108, are in fact correct, and that the Commission did
follow the law in ascertaining the benefits to each
property including the Holter property” and requests
dismissal of the appeal Id. at ¶ 4.
[¶2] On September 7, 2018, Holter filed a Reply
asserting that while the Mandan Special Assessment
Committee held a meeting on the Court’s remand,
they failed to make any further findings asserting
that it “believes that the benefit to each property in
the district equal or exceeds the dollar of the assessment
that was made by the commission last year.” Docket
No. 37 (Petitioner’s Reply to Respondent’s Return to
the Order of Remand) at ¶¶ 4-5. As a result, Holier
asserts that her appeal should be upheld. Id.
LAW AND DECISION
[¶3] Holter argues the City acted arbitrarily,
capriciously, unreasonably and contrary to law when
it assessed properties in an amount exceeding the
benefit to the properties. In turn, the City argues the
properties benefited from the construction of sidewalks,
and the benefit to the properties is equal to or exceeds
the amount assessed.
[¶4] Section 40-23-07 of the North Dakota Century
Code governs the determination of special assessments
by commission:
The commission shall determine the amount
in which each of the lots and parcels of land
will be especially benefited by the construction
of the work for which such special assessment

App.37a
is to be made, and shall assess against each
of such lots and parcels of land such sum, not
exceeding the benefits, as is necessary to pay
its just proportion of the total cost of such
work, or of the part thereof which is to be paid
by special assessment, including all expenses
incurred in making such assessment and
publishing necessary notices with reference
thereto and the per diem of the commission.
N.D.C.C. § 40-23-07 (emphasis added).
[¶5] In Bateman v. City of Grand Forks, the North
Dakota Supreme Court identified three requirements
for a special assessment to comply with Section 40-2307:
The special benefit accruing to each lot or
parcel of land from the improvement must be
determined. The special assessment levied
against each lot must be limited to its just
proportion of the total cost of the improvement. The assessment against any lot or
parcel of land must not exceed the benefit
which has been determined to have accrued
thereto.

Bateman v. City of Grand Forks, 2008 ND 72, 1111, 747
N.W.2d 117 (quoting Cloverdale Foods Co. v. City of
Mandan, 364 N.W.2d 56, 61 (N.D. 1985)) (emphasis
added).

[¶6] A special assessment commission’s broad
discretion includes choosing the method used to decide
benefits and apportioning costs to individual properties.
Serenko v. City of Wilton, 1999 ND 88, ¶ 21, 593
N.W.2d 368. The assessments levied against property
must be limited to a “just proportion,” but “the process

App.38a
of quantifying benefits accruing to each lot inevitably
rests on the judgment and discretion of the special
assessment commission.” Haman v. City of Surrey,
418 N.W.2d 605, 608 (N.D. 1988). There is no precise
formula for quantifying benefits. Id. “[A]n ‘assessment
may be apportioned according to frontage, area, value
of, or estimated benefits to, the property assessed, or
according to districts or zones, or on any other reasonable basis that is fair, just, and equitable.’”.
Serenko, at ¶ 21 (quoting Cloverdale Food v. City of
Mandan, 364 N.W.2d 56, 61). The method used to
apportion the assessment cannot be arbitrary and
must have some relation to the benefits. Cloverdale,
364 N.W.2d at 61. A city may adopt any mode of
apportionment that is fair and legal and would secure
an assessment in proportion to the benefits accruing as
nearly as practicable, if there is no statute prescribing
the method to use. Id. “‘[i]t is the total work product
which was used in determining the final assessment
which is important, rather than the exact method
used in determining the assessment.’” Id. (quoting
United Pub. Sch. Dist. No. 7 v. City of Burlington, 196
N.W.2d 65, 69 (N.D. 1972)).
[¶7] As stated in the Court’s Order of March 20,
2018, while the record in this case indicates that
Holter’s three properties were assessed at $15,928.40
per parcel, for a combined total assessment of
$47,785.20; the record fails to indicate the of “the
special benefit accruing to each lot or parcel of land
from the improvement.” Docket No. 32 (Order) at ¶ 15.
The City is once again directed to supplement the
record to provide the Court with the method used to
decide benefits and apportion costs to individual

App.39a
properties within the assessment district at issue in
this case.
Dated this 24th day of September, 2018.
By the Court
/s/ Cynthia M. Feland
District Judge

App.40a
ORDER OF THE DISTRICT COURT
OF NORTH DAKOTA,
SOUTH CENTRAL JUDICIAL DISTRICT
(MARCH 20, 2018)
IN DISTRICT COURT
SOUTH CENTRAL JUDICIAL DISTRICT
STATE OF NORTH DAKOTA
COUNTY OF MORTON
________________________
DEBORAH HOLTER,

Appellant,
v.
CITY OF MANDAN, a Political Subdivision
of the State of North Dakota,

Appellee.

________________________

Case No. 30-2017-CV-01003
Before: Cynthia M. FELAND, District Judge.
[¶1] Appellant, Deborah Holter, appeals from a
decision by the Board of City Commissioners of the
City of Mandan (City) “relating to Confirmation of
Special Assessments for Street Improvement District
No. 199 over the objections/appeals of Landowners.”
Docket No. 1. In her Notice of Appeal, Holter argues
BOCC acted arbitrarily, capriciously, unreasonably and
contrary to law when it assessed the affected properties
in an amount exceeding the benefit to the affected

App.41a
properties. Id. The City opposes the appeal, arguing
that the affected properties benefited from the construction of sidewalks and that the benefit to the
properties exceeds the amount assessed. Docket No.
28.
STANDARD OF REVIEW
[¶2] Section 28-34-01 of the North Dakota Century
Code governs an appeal from the decision of a local
governing body. The governing body’s decision must
be affirmed unless the local body acted arbitrarily,
capriciously, or unreasonably, or there is not substantial
evidence supporting the decision. Tibert v. City of
Minto, 2006 ND 189, ¶ 8, 720 N.W.2d 921 (citing
Graber v. Logan County Water Res. Bd., 1999 ND 168,
¶ 7, 598 N.W.2d 846). “A decision is not arbitrary,
capricious, or unreasonable if the exercise of discretion
is the product of a rational mental process by which
the facts and the law relied upon are considered
together for the purpose of achieving a reasoned and
reasonable interpretation.” Tibert, at ¶ 8 (citing Klindt
v. Pembina County Water Res. Bd., 2005 ND 106,
¶ 12, 697 N.W.2d 339).
[¶3] Under Section 28-34-01(3) of the North
Dakota Century Code, a district court “may order that
such additional evidence be taken, heard, and
considered by the local governing body on such terms
and conditions as the court may determine” if it is
shown to the satisfaction of the court that “such additional evidence is material to the issues involved and
was rejected or excluded by the local governing
body . . . ” N.D.C.C. § 28-34-01(3). “A district court’s
decision whether to order the taking of additional evidence under N.D.C.C. § 28-34-01(3) is discretionary.”

App.42a

Grand Forks Homes, Inc. v. Grand Forks Bd of Cnty.
Comm’rs, 2011 ND 50, ¶ 8, 795 N.W.2d 381.
FINDINGS OF FACT
[¶4] On March 3, 2015, the BOCC held a meeting
and adopted (1) a Resolution Approving Engineer’s
Report and Authorizing Preparation of the Detailed
Plans and Specifications for the Construction of the
Improvement in Street Improvement District No. 199,
(2) Resolution Declaring the Necessity of an Improvement Project In and For Street Improvement District
No. 199 of the City of Mandan to be Paid by the Levy
of Special Assessments on Property Benefitted Thereby,
and (3) the Resolution Creating Street Improvement
District No. 199. ROA 18-23, 26.
[¶5] On April 13, 2015, the opportunity for lodging
protests to the improvements ended. ROA 55. On April
21, 2015, the BOCC approved a Resolution Determining
Insufficiency of Protests for Street Improvement District No. 199, a Resolution Directing Advertisement for
Bids for Street Improvement District No. 199, and a
Resolution Approving Plans and Specifications for
Street Improvement District No. 199. Docket No. 8
[ROA], pp. 41-45, and 49-50.
[¶6] On May 14, 2016, two bids were received for
the improvements to District No. 199. Id. at P. 55.
Both of the bids were substantially higher than the
estimate provided by the City’s engineer. Id. At the
City meeting on May 19, 2016, both bids were rejected
and the City’s Planning and Engineering Department
was directed to revise the plans and specifications and
rebid the project. Id. at pp. 63-64.

App.43a
[¶7] By resolution on June 2, 2015, the City
approved the revised plans for District No. 199 and
authorized solicitation of bids. Id. at pp. 82-86, and 89-

90.

[¶8] At the City meeting on June 30, 2015, new
bids for District No. 199 were reviewed, and the City
awarded the contract for District No. 199 to Mariner
Construction in the amount of $2,641,458.69, plus
administrative and engineering costs of $924,510.54,
for a total estimated cost of $3,465,969.23. Id. at P. 99.
[¶9] After completion of the improvements for
District No. 199, on July 7, 2017, the Mandan Special
Assessment Commission (MSAC) held a meeting to
discuss approval of the proposed special assessments
for District No. 199. Id. at P. 101. All three members
of the MSAC, Keith Winks, Carl Jacobsen, and the
Petitioner, Deborah Holter, were present at the meeting
on the July 7, 2017, at P. 103.
[¶10] During the meeting, Holter contested the
amount of assessments because her three parcels,
located on the north side of the 1100 block of 3rd
Street, were being assessed at a higher rate than the
corner parcels on the south side of the 1100 block of
3rd Street. Id. The remaining members of the MSAC
voted to approve the special assessments for District
No. 199. Id. After the July 7, 2017 meeting, a written
objection was lodged alleging that 3rd Street should
be considered a “collector street.” Id. at pp. 106-107.
[¶11] Notice of Hearing of Objections to Special
Assessments for Street Improvement District No. 199
was issued and the MSAC held a public hearing that
was held on August 9, 2017. Id. at pp. 108-121. At the
public hearing Holter objected to the assessment of

App.44a
approximately $50,000.00 against her three properties as
being unfair. Id. at P. 121. Holter also expressed her
concern that the School District may have been
assessed differently than the rest of the parcels within District No. 199. Id. Hearing no other objections,
a motion to approve the assessment for District No.
199 and move it to the BOCC for consideration was
made and passed. Id. Holter abstained from the vote.

Id.

LAW AND DECISION
[¶12] Holter argues the City acted arbitrarily,
capriciously, unreasonably and contrary to law when
it assessed properties in an amount exceeding the
benefit to the properties. In response, the City argues
the properties benefited from the construction of
sidewalks, and the benefit to the properties exceeds
the amount assessed.
[¶13] Section 40-23-07 of the North Dakota Century Code governs the determination of special assessments by commission:
The commission shall determine the amount
in which each of the lots and parcels of land
will be especially benefited by the construction
of the work for which such special assessment
is to be made, and shall assess against each
of such lots and parcels of land such sum, not
exceeding the benefits, as is necessary to pay
its just proportion of the total cost of such
work, or of the part thereof which is to be
paid by special assessment, including all
expenses incurred in making such assessment

App.45a
and publishing necessary notices with reference thereto and the per diem of the commission.
N.D.C.C. § 40-23-07.
[¶14] In Bateman v. City of Grand Forks, the
North Dakota Supreme Court identified three requirements for a special assessment to comply with Section
40-23-07:
The special benefit accruing to each lot or
parcel of land from the improvement must be
determined. The special assessment levied
against each lot must be limited to its just
proportion of the total cost of the improvement. The assessment against any lot or
parcel of land must not exceed the benefit
which has been determined to have accrued
thereto.

Bateman v. City of Grand Forks, 2008 ND 72, ¶ 11, 747
N.W.2d 117 (quoting Cloverdale Foods Co. v. City of
Mandan, 364 N.W.2d 56, 61 (N.D.1985)).
[¶15] After review, the record indicates that
Holter’s three properties were assessed at $15,928.40
per parcel, for a combined total assessment of
$47,785.20. The record, however, fails to indicate the
amount of “the special benefit accruing to each lot or
parcel of land from the improvement.” As a result, this
Court is unable to determine whether the City erred
in its determination because either the record is
incomplete or the City failed to determined “the
amount in which each of the lots and parcels of land
will be especially benefited by the construction of the
work for which such special assessment is to be
made.” As evidence of the amount of the resulting

App.46a
benefit is material to the issues involved, this case is
REMANDED for further findings regarding the benefit
to Holter’s properties.
Dated this 20th day of March, 2018.
By the Court
/s/ Cynthia M. Feland
District Judge

App.47a
ORDER OF THE SUPREME COURT OF NORTH
DAKOTA DENYING PETITION FOR REHEARING
(SEPTEMBER 21, 2020)
IN THE SUPREME COURT
STATE OF NORTH DAKOTA
________________________
DEBORAH HOLTER,

Petitioner and Appellant,
v.
CITY OF MANDAN, a Political Subdivision
of the State of North Dakota,

Respondent and Appellee.

________________________

Supreme Court No. 20190277
Morton Co. No. 30-2017-CV-01003
Before: Lisa Fair MCEVERS, Daniel J. CROTHERS,
Gerald W. VANDEWALLE, Judges.
[¶ 1] This appeal having been heard by the Court
at the January 2020 Term and an opinion having been
filed on July 22, 2020, by:
[¶ 2] Chief Justice Jon J. Jensen, Justice Gerald
W. VandeWalle, Justice Daniel J. Crothers, Justice
Lisa Fair McEvers, and Justice Jerod E. Tufte;
[¶ 3] and a petition for rehearing having been
filed by William C. Black, counsel for the Appellant,
and the Court having considered the matter, it is hereby

App.48a
ORDERED AND ADJUDGED, that the petition be
and is hereby DENIED.
[¶ 4] AND IT IS FURTHER ORDERED, that this
cause be and it is hereby remanded to the District
Court for further proceedings according to law, and
the judgment of this Court.
By the Court
/s/ Lisa Fair McEvers
/s/ Daniel J. Crothers
/s/ Gerald W. VandeWalle

App.49a
DISSENTING OPINION OF
CHIEF JUSTICE JENSEN
Jensen, Chief Justice.
[¶43] The majority has denied Holter’s petition
for rehearing. I have voted to grant the petition for
rehearing. The petition, in part, requests an opportunity
to address the rationale underlying the majority’s
affirmance of the special assessment. Paragraph 21 of
the majority opinion asserts “the Special Assessment
Commission did more than simply take the total cost
of the project and divide it by using the formula. It
first deducted $225,000 from the costs and expenses.
In doing so, it determined the benefits for all properties
assessed was less than the total cost of the work.”
What paragraph 21 of the majority opinion omits is
recognition that the City never advanced that argument in this Court or in the district court. This Court,
not the City, articulated the $225,000 deduction as a
rationale supporting the City’s determination of benefit
in the special assessment process. There is not a
single reference to the $225,000 reduction of costs and
expenses in the City’s brief to this Court. The record
does not reflect the City ever advancing the rationale
articulated by this Court as a justification or an
explanation to the district court—not in the first
appeal to the district court, and not after either of the
two district court remands to the City demanding an
explanation of the benefits. The petition, in part,
seeks an opportunity to address the rationale of this
Court, an opportunity the Holter has never been given
because the rationale was never advanced by the City
and was first articulated in the opinion of this Court
issued subsequent to the briefing and oral argument.

App.50a
[¶44] This Court rightfully affords great deference
to local taxing authorities. However, we should not
extend that deference to the point that we deny taxpayers an opportunity to address the rationale this
Court ultimately selects as the rationale for affirming
the decision of a local taxing authority. Justice VandeWalle noted the danger of overextending and understating this Court’s review of local tax authorities as
follows:
If the courts are to review these actions, and
it is not necessary as a matter of constitutional
right that they be empowered to do so, it
should be a meaningful review recognizing
the limitations thereon by the doctrine of
separation of powers. Anything less than a
meaningful review gives a false sense of
adherence to our system of checks and balances which makes the judicial branch little
more than an apologist for the actions of the
executive branch of government, on the one
hand, or a usurper of powers on the other.
Neither is a desirable result.

Koch Hydrocarbon Co. v. State By & Through State
Bd. of Equalization, 454 N.W.2d 508, 515 (N.D. 1990)
(VandeWalle, Justice, concurring specially).

[¶45] My concern is a decision founded on rationale never advanced by the taxing authority, without
providing a taxpayer an opportunity to respond, makes
this Court “little more than an apologist for the actions
of the executive branch of government.” Following a
rehearing we may elect not to alter our prior opinion,
but we should at least allow taxpayers an opportunity
to respond to a rationale articulated first by this Court

App.51a
and a rationale that was never previously advanced
by the taxing authority.
[¶46]

Jon J. Jensen
Chief Justice
Jerod E. Tufte

